   Report No. D-2010-072        July 12, 2010




Management of Emergency Supplemental Appropriations
   at Selected Department of the Army Commands
         in Response to the Terrorist Attacks
Additional Information
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig/mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AMC                   Army Materiel Command
AMCOM LCMC            AMCOM Life Cycle Management Command
ASA(FM&C)             Assistant Secretary of the Army, (Financial Management &
                         Comptroller)
AWCF                  Army Working Capital Fund
CECOM LCMC            CECOM Life Cycle Management Command
CIDC                  Army Criminal Investigation Command
DERF                  Defense Emergency Response Fund
DWCF                  Defense Working Capital Fund
IFF                   Iraq Freedom Fund
FAD                   Fund Authorization Documents
INSCOM                Army Intelligence and Security Command
JMC                   Joint Munitions Command
MACOM                 Major Command
MIPR                  Military Interdepartmental Purchase Request
OMB                   Office of Management and Budget
PEO IEW               Program Executive Office, Intelligence and Electronic Warfare
SUBMACOM              Major Army Subcommand
TACOM LCMC            TACOM Life Cycle Management Command
TRADOC                Army Training and Doctrine Command
USD(C)/DOD CFO        Under Secretary of Defense (Comptroller)/DOD Chief Financial
                         Officer
                                    INSPECTOR GENERAL 

                                   DEPARTMENT OF DEFENSE 

                                       400 ARMY NAVY DR IVE 

                                AR LI NGTON, VIRG INIA 22202-4704 


                                                                                      July 12, 2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                DOD CHIEF FINANCIAL OFFICER
              ASSISTANT SECRETARY OF THE ARMY, (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
              DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY
              COMMANDER, U.S. ARMY MATERIEL COMMAND
              COMMANDER, U.S. ARMY INTELLIGENCE AND SECURITY
                 COMMAND

SUBJECT: 	 Management of Emergency Supplemental Appropriations at Selected Department of
           the Army Commands in Response to the Terrorist Attacks
           (Report No. D20 10-072)

We are providing this report for your review and comment. We considered comments from the
Office of the Assistant Secretary of the Army (Financial Management and Comptro ller) in
preparing the final report. The report discusses a potential violation ofthe Antideficiency Act.

DOD Directive 7650.3 requires that recommendations be resolved promptly. The Assistant
Secretary of the Almy (Financial Management & Comptroller) COlml1ents to Recommendations 2
and 3 are responsive and no additional comments are required. The Assistant Secretary of the
Army (Financial Management & Comptroller) comments to Recommendation I were not
responsive. We request additional comments on Recommendation 1 by August 11, 2010.

Please provide comments that COnf0l111 to the requirements of DOD Directive 7650.3. Ifpossible,
send management comments in electronic format (Adobe Acrobat file only) to
auddbo@dodig.mil. Copies of your comments must have the actual signature of the authorizing
official for your organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified COimllents electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 601­
5868.


                                             f~~.!!lJv
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
Report No. D2010-072 (Project No. D2008-D000FE-0106.001)                       July 12, 2010

               Results in Brief: Management of Emergency
               Supplemental Appropriations at Selected
               Department of the Army Commands in
               Response to Terrorist Attacks
                                                              •		 AMCOM LCMC also expended
What We Did                                                       $82.1 million to acquire spares and
                                                                  $21.2 million for repairs and billed DOD
Our audit objective was to determine whether the                  Components for the full cost of the spares
emergency supplemental appropriations allocated                   and repairs instead of billing the
to the Defense Emergency Response Fund                            Components just for its added costs.
(DERF) for DOD needs subsequent to the events
of September 11, 2001, were used as intended and          These conditions occurred because INSCOM and
whether the use of the fund complied with the             AMCOM LCMC did not implement DOD policies
Office of Management and Budget guidance. This            and procedures to ensure that appropriated funds
is the second of two reports we have issued on the        were expended for the appropriations’ intended
audit. In the first report, we addressed whether          purposes. As a result, a potential Antideficiency
DOD closed all balances in DERF and transferred           Act violation may have occurred at INSCOM and
them to the Iraq Freedom Fund as intended by              AMCOM LCMC for the use of the amounts in
Public Laws 108-11 and 108-106.                           DERF for other than their intended purposes. In
                                                          addition, AMCOM LCMC may have used
What We Found                                             appropriated funds to supplement the AWCF.
Four Army Major Commands (MACOMs) and
four Subordinate Commands (SUBMACOMs) of                  What We Recommend
the Army Materiel Command (AMC) we visited                We recommend that the Assistant Secretary of the
generally used all or part of their emergency             Army, (Financial Management & Comptroller)
supplemental appropriations in the Defense                (ASA[FM&C]):
Emergency Response Fund (DERF) for DOD                       •		 Ensure that the Army Components
needs arising from the terrorist attacks of                      implement procedures to comply with the
September 11, 2001. However, one MACOM and                       legal restrictions and limitations on the use
one AMC SUBMACOM did not always use their                        of appropriate funds;
emergency supplemental appropriations in DERF                •		 Investigate and determine whether
for DOD needs arising from the events of                         INSCOM and AMCOM LCMC violated
September 11, 2001. Specifically:                                the Antideficiency Act; and
                                                             •		 Decrease the budget authority of the
   •		 the U.S. Army Intelligence and Security                   AWCF by establishing a verifiable rate
       Command (INSCOM) expended over                            reduction in the AWCF selling prices.
       $1.7 million for building repairs, support
       services, furniture, and construction which
       were not related to the terrorist attacks of       Management Comments and
       September 11, 2001;                                Our Response
   •		 AMCOM Life Cycle Management                        ASA(FM&C) comments to Recommendation 1
       Command (AMCOM LCMC), a                            were not responsive. We request that the
       SUBMACOM of AMC, expended                          ASA(FM&C) provide additional comments to the
       $5 million to investigate a missile fire           recommendation by August 11, 2010. The full
       mishap that occurred before September 11,          text of all comments appears in the Management
       2001; and                                          Comments sections of the report. Please see the
                                                          recommendations table on page ii.

                                                      i
Report No. D2010-072 (Project No. D2008-D000FE-0106.001)        July 12, 2010

Recommendations Table

         Management                     Recommendations     No Additional Comments
                                       Requiring Comment          Required
Assistant Secretary of the Army,   1                       2, 3
(Financial Management and
Comptroller)

Please provide comments by August 11, 2010.




                                            ii
Table of Contents

Introduction		                                                                    1


       Objective                                                                  1

       Background                                                                 1

       Review of Internal Controls                                                4



Finding

       Use of the Emergency Supplement Appropriations in Defense Emergency


              Response Fund                                                       5


       Recommendations, Management Comments, and Our Response		                  11 


Appendices

       A. S	 cope and Methodology                                                14 

               Prior Coverage                                                    18 

       B. 	Emergency Supplemental Appropriations Affecting the Defense Emergency


               Response Fund                                                     19 

       C. 	Office of Management and Budget Guidelines for Funding Requests for


               Areas Related to the September 11, 2001, Terrorist Attacks        21 

       D. Department of the Army Allocation of the DERF		                        24 


Management Comments

       Assistant Secretary of the Army (Financial Management and Comptroller)    25 

Introduction
Objective
Our audit objective was to determine whether the emergency supplemental appropriations
allocated to the Defense Emergency Response Fund (DERF) for DOD needs subsequent
to the events of September 11, 2001, were used as intended and whether the use of the
fund complied with the Office of Management and Budget (OMB) guidance. This is the
second of two reports addressing this audit objective. In the first report, we addressed
whether DOD closed and transferred all balances in DERF to the Iraq Freedom Fund
(IFF) as intended by Public Law 108-11, the “Emergency Wartime Supplemental
Appropriations Act, 2003,” April 16, 2003, and Public Law 108-106, the “Emergency
Supplemental Appropriations Act for Defense and for the Reconstruction of Iraq and
Afghanistan, 2004,” November 6, 2003. These public laws require that balances in
DERF as of October 31, 2003, be transferred to the IFF. For this report, we reviewed
documentation at four Army Major Commands (MACOMs) and four subordinate
commands (SUBCOMs) of one of the MACOMs. See Appendix A for a discussion of
the scope, methodology, and prior audit coverage.

Background
Defense Emergency Response Fund
In FY 1990, Congress established DERF to reimburse DOD for providing disaster or
emergency assistance to other Federal agencies and to state and local governments in
anticipation of reimbursable requests. Congress initially funded DERF at $100 million.
The purpose of DERF is to allow DOD to provide disaster and emergency relief
assistance without depleting the funds it needs to accomplish its mission. DERF
centralizes DOD financial accounting for disaster assistance. From its inception through
2006, DOD has used more than $384.1 million in DERF funding for overseas disaster
and humanitarian assistance projects. Congress allocated more than $14.6 billion
additional funding to DERF for DOD needs arising from the events of September 11,
2001. The Under Secretary of Defense (Comptroller)/DOD Chief Financial Officer,
(USD[C]/DOD CFO) allocated about $2.5 billion 1 of this amount to the Department of
the Army (the Army).

Emergency Supplemental Appropriations
Shortly after the terrorist attacks on September 11, 2001, Congress passed several laws
that provided funding to Federal agencies to meet their emergency expenses arising from
the attacks. The funds were to be used for:

       •		 providing Federal, state, and local preparedness for mitigating and responding to
           the attacks;


1
    Including funding to the Army National Guard

                                                   1

    •		 providing support to counter, investigate, or prosecute domestic or international
        terrorism;
    •		 providing increased transportation security;
    •		 repairing public facilities and transportation systems damaged by the attacks; and
    •		 supporting national security.

Public Law 108-11, “Emergency Wartime Supplemental Appropriations Act, 2003,” and
Public Law 108-106, “Emergency Supplemental Appropriations Act for Defense and for
the Reconstruction of Iraq and Afghanistan, 2004,” required that balances in DERF as of
October 31, 2003, be transferred to IFF. In addition, Public Law 108-11 required the
DERF balances remain available for the same purposes and terms of conditions as the
funds appropriated to the IFF “in this chapter.” The funds appropriated for the IFF “in
this chapter” were available until September 30, 2004. See Appendix B for the
emergency supplemental appropriations affecting DERF.

OMB Guidance
In a memorandum to the heads of Federal departments and agencies, “Emergency
Funding to Respond to the September 11th Terrorist Attacks,” dated September 14, 2001,
OMB stated that it is incumbent on heads of Federal departments and agencies to see that
every dollar of these resources is used for the intended purposes and is fully accounted
for. OMB provided guidance for identifying and evaluating those areas where the
funding should be targeted. According to the guidance:

       •		 damage to be repaired must be directly caused by the terrorist acts;
       •		 funding is limited to the amount necessary to restore the entity or facility to
           current standards;
       •		 the requirement is not competitive with or duplicative of activities of other
           agencies’ required disaster assistance programs;
       •		 the requirement cannot be met through the use of existing agency funds;
       •		 funds must address specific deficiencies encountered or identified to prevent
           such as those of September 11, 2001; and
       •		 funds can be used to enhance U.S. abilities to interdict terrorist threats.

See Appendix C for the full text of the OMB guidance.

DOD Financial Management Regulation
DOD Financial Management Regulation, DOD 7000.14-R, provides guidance on
financial management requirements, systems, and functions for all appropriated and non-
appropriated, working capital, revolving, and trust fund activities at DOD and is
applicable to all DOD Components.

Volume 2A, Chapter 1
DOD Regulation 7000.14-R, volume 2A, chapter 1, “General Information,” October
2008, section 010219 provides general guidelines for Defense Working Capital Funds
(DWCF) cost recovery and price setting. According to the guidance, DWCF should set

                                             2


their prices based upon full cost recovery and prices, when set, should remain fixed
during the year of execution. Profits or losses should be determined at the end of the
year. Accordingly, prices in the budget year will be set either to make up actual or
projected losses, or to give back actual or projected gains in the budget year(s).

Volume 11B, Chapters 1 and 3
According to DOD Regulation 7000.14-R, volume 11B, chapter 1, “Defense Working
Capital Funds, General Policies and Requirements,” October 2002, DWCFs are managed
to provide goods and services to other DOD Components on a reimbursable basis.
DWCFs receive their initial funding through an appropriation or a transfer of resources
from existing appropriations and use those resources to finance the initial cost of products
and services. The acceptance of customer orders generates financial resources to
replenish the initial working capital and to sustain the operations of the funds. DWCF
activities operate on break-even basis. They establish customer rates (selling prices) to
cover the cost of services provided as well as approved surcharges. DWCF operations
may result in realized gains or losses, which appear in subsequent years as offsetting
adjustments in the rates. Volume 11B, chapter 3, section 0304 states:

                 A nonexpenditure transfer is to move budgetary resources from one
                 budget account, appropriation, or fund to another that does not involve
                 an outlay. Nonexpenditure transfers of funds may be received from
                 another appropriation or fund or may be made to another appropriation
                 or fund when appropriate and authorized. A nonexpenditure transfer of
                 funds received from another appropriation or fund increases the amount
                 of available budgetary resources. A nonexpenditure transfer of funds
                 made to another appropriation or fund decreases the amount of
                 available budgetary resources.


Volume 14, Chapters 1, 2 2, and 3
DOD Regulation 7000.14-R, volume 14, chapter 1, “Administrative Control of
Appropriations,” October 2002, establishes policy and procedures for the administrative
control of funds. The policy requires DOD Components to restrict the use of limitations
on available funds to those necessary to comply with statutory provisions, such as those
imposed by the appropriate DOD authorization or DOD Appropriations Act, or to address
specific management requirements. The policy also requires DOD Components and
officials to limit the obligation and expenditure of funds to the purposes authorized by the
type of fund or account. In addition, the policy requires DOD Components to make
allotments and suballotments in writing and the document must at least include the legal
restrictions or limitations on the obligation and disbursement of the allotted funds.
Volume 14, chapter 2, “Violations of the Antideficiency Act,” August 2006, states that a
violation of the Antideficiency Act may occur if statutory limitations on the purpose for
which an appropriation or fund may be used are violated. Chapter 3, “Preliminary
Review of Potential Violations,” February 2008, states that upon learning of or detecting


2
 Chapter 1 was revised in January 2009 and chapter 2 in March 2009. However, the revisions retained the
same restrictions on the use of appropriated funds as in the 2002 edition.

                                                   3

a possible violation of the Antideficiency Act, the applicable Office of the Assistant
Secretary of the Military Department for Financial Management, or the Comptroller or
Senior Financial Manager for other DOD Components, shall assign a case number to the
possible violation and report the necessary information to the USD(C) DOD Deputy
Chief Financial Officer. Chapter 3 also states that a preliminary review of the potential
violation should be done in a timely manner, usually within 90 days.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified an internal
control weakness in two Army Commands’ use of the emergency supplemental
appropriations for other than the funds intended purposes.

The Army Intelligence and Security Command (INSCOM) expended $1.4 million of the
emergency supplemental appropriations in DERF for facility repairs, alterations, and
building repair and construction. INSCOM also expended $310,000 for furniture and
support services and transformation construction, and about $16,000 to replace two air
conditioners. These expenditures were not related to the terrorist attacks of
September 11, 2001.

AMCOM Life Cycle Management Command (AMCOM LCMC), a Subordinate
Command of the Army Materiel Command, expended $5 million to investigate an
accident unrelated to the September 11, 2001 terrorist attacks.

AMCOM LCMC also appropriately expended $82.1 million emergency supplemental
appropriations in DERF in the Army Working Capital Fund (AWCF) to acquire spares
and an additional $21.2 million for repairs. However, AMCOM LCMC billed DOD
Components for the full cost of the spares and repairs instead of billing the Components
for just the AMCOM LCMC added costs, thereby supplementing the AWCF with
appropriated funds. Implementing the recommendations in this report by the Assistant
Secretary of the Army, (Financial Management & Comptroller) will improve financial
management at the Army Commands. We will provide a copy of this report to the senior
official responsible for internal controls in the Office of the USD(C)/DOD CFO and at
the Department of the Army.




                                            4


Finding. Use of the Emergency Supplement
Appropriations in Defense Emergency
Response Fund
Four Army Major Commands (MACOMs) and four Subordinate Commands
(SUBMACOMs) of the Army Materiel Command (AMC) we visited generally used all or
part of their emergency supplemental appropriations in the Defense Emergency Response
Fund (DERF) for DOD needs arising from the terrorist attacks of September 11, 2001.
However, one MACOM and one AMC SUBMACOM did not always use their
emergency supplemental appropriations in DERF for DOD needs arising from the events
of September 11, 2001. Specifically:

   •		 the U.S. Army Intelligence and Security Command (INSCOM) expended
       $1.4 million for facility repairs, alterations, building repairs, and construction;
       $310,000 for the purchase of furniture and support services; and about $16,000 to
       replace two air conditioners. None of these obligations were related to the
       terrorist attacks of September 11, 2001.

   •		 AMCOM Life Cycle Management Command (AMCOM LCMC), a
       SUBMACOM of AMC, expended $5 million to investigate a missile fire mishap
       that occurred before September 11, 2001.

   •		 AMCOM LCMC also appropriately expended $82.1 million emergency
       supplemental appropriations in DERF in the AWCF to acquire spares and
       additional $21.2 million for repairs. However, AMCOM LCMC billed DOD
       Components for the full cost of the spares and repairs instead of billing the
       Components just for its added cost.

These conditions occurred because INSCOM and AMCOM LCMC did not implement
policies and procedures to ensure that the emergency supplemental appropriations in the
DERF were expended in accordance with the Office of Management and Budget (OMB)
guidance. As a result, potential Antideficiency Act violations may have occurred at
INSCOM and AMCOM LCMC for using the emergency supplemental appropriations in
DERF for other than their intended purposes. In addition, AMCOM LCMC may have
used appropriated funds to supplement the AWCF.

Emergency Supplemental Appropriations in DERF
Eight public laws either provided funding to DERF for DOD needs arising from the
events of September 11, 2001, or allowed DOD to transfer funding from DERF to other
DOD appropriations. See Appendix B for the emergency supplemental appropriations
affecting DERF. DOD received about $14.6 billion into DERF and allocated about
$2.5 billion to the Army.



                                            5

Allocation of DERF to Army Commands
The USD(C)/DOD CFO allocated emergency supplemental appropriations in DERF for
DOD needs arising from the events of September 11, 2001, to the Army on Fund
Authorization Documents (FAD). The Army then suballocated the funds, also on FADs,
to the MACOMs for execution. The MACOMs either expended the funds or
suballocated the funds to their SUBMACOMs for execution. The FADs established a
written funding authority for the receiving Commands. The allocation and suballocation
FADs included restrictions on the use of the funds. However, the MACOMs and the
SUBMACOMs did not always follow the restriction or limitation on the FADs as
required by DOD Regulation 7000.14-R. Table 1 shows the Army allocation of funds to
the MACOMs we visited. See Appendix D for the allocation of the total Army funds.

          Table 1. Allocation of Funds to the Army Commands We Visited
                                      (millions)
                                                              Amount
                            Army Commands                    Received
         Army Materiel Command (AMC)                         $434.2
                                                    *
         Intelligence and Security Command (INSCOM)           146.6
         Army Training and Doctrine Command (TRADOC)           55.2
         Army Criminal Investigation Command (CIDC)            19.8
           Total                                             $655.8
         *
          INSCOM received $146.6 million. During the audit, we identified
         $3.1 million that had remained unobligated for over 5 years, which
         INSCOM returned to the Army during our audit.

Limitations on the Use of the Emergency Supplemental
Appropriations
The OMB guidelines state that the emergency supplemental appropriations were only for
agency needs arising from the terrorist attacks of September 11, 2001. In addition, the
damage to be repaired must be directly caused by the terrorist acts, the requirement
cannot reasonably be met with existing agency funds, and the requirement is a known,
rather than a speculative need. See Appendix C for the OMB guidance. DOD financial
management regulations require DOD Components to use DOD funds for their
appropriated purposes. Table 2 shows the results of obligations of emergency
supplemental appropriations in DERF we reviewed at the Commands we visited.




                                              6


    Table 2. Obligations of Emergency Supplemental Appropriations in DERF


                       Reviewed at the MACOMs Visited


                                   (millions)
         Army Command                     Total        Amount         Used for     Used for
                                         Received      Reviewed        Other       Intended
                                                                      Purposes     Purposes
 INSCOM                            $ 146.6        $143.5               $1.7        $141.8
 AMC
  AMCOM LCMC                         115.7         111.1             5.0           106.1*
  CECOM Life Cycle Management
    Command                           84.3           21.6              0            21.6
  Joint Munitions Command
  TACOM Life Cycle Management        141.8         105.0               0           105.0
    Command                           55.0           52.0              0            52.0
 CIDC                                 19.8           15.9              0            15.9
 TRADOC
   Transportation Command              1.7             1.5             0              1.5
   Total                            $564.9        $450.6           $6.7          $443.9
 *AMCOM LCMC expended $103.3 million of this amount to acquire spares and for repairs for the
 Army Working Capital Fund. We concluded that AMCOM LCMC used the $103.3 million for its
 intended purposes. However, AMCOM LCMC billed DOD Components for the full cost rather
 than for its added cost as required by OMB guidance. The remaining $2.8 million was used for
 non-customer reimbursable expenses (not spares) and were used for intended purposes.


Emergency Supplemental Appropriations in DERF Used
for the Intended Purposes
We identified instances where the MACOMs and the SUBMACOMs we visited
expended their emergency supplemental appropriations in DERF for their needs arising
from the terrorist attacks of September 11, 2001 as required by OMB guidance. For
example,

   •		 CECOM Life Cycle Management Command (CECOM LCMC) received
       $84.3 million from AMC and expended about $1.7 million for survival
       enhancement program, about $2 million for intelligence and information support,
       and $733,000 to build a fence around the base.
   •		 Joint Munitions Command (JMC) used most of its funding from AMC for
       Operation Enduring Freedom, Iraq; augmentation support for Operation Noble
       Eagle, Afghanistan; enhanced force protection, and increased ability to guard
       against, deter, and respond to terrorist incidents.
   •		 TACOM Life Cycle Management Command (TACOM LCMC) field activity at
       Rock Island used part of its funding for tracks of field artillery.
   •		 AMCOM LCMC used part of the funding for improvement to the gates at the
       base by providing a canopy and barriers at the gates.
   •		 The Transportation Command, a SUBMACOM of TRADOC, used most of its
       $1.7 million funding for security enhancements at a port and gates to the base.

                                                7

    •		 The Army Criminal Investigation Command used most of its $19.8 million for
        security enhancements such as acquisition and installation of surveillance and
        telecommunication equipment.

Emergency Supplemental Appropriations in DERF Used
for Other Purposes
INSCOM and AMCOM LCMC did not always use their emergency supplemental
appropriations in DERF for the intended purposes. This condition occurred because the
MACOM and the SUBMACOM did not implement DOD internal controls to ensure that
DOD appropriated funds were:

    •		 used for the intended purposes, and
    •		 in compliance with the OMB guidance.

INSCOM
INSCOM did not implement DOD internal control policies to ensure that the use of the
emergency supplemental appropriations in DERF complied with OMB guidance and
DOD financial management regulations. INSCOM received $146.6 million emergency
supplemental appropriations in DERF from the Army. The Army FADs to INSCOM
clearly stated that the funding was to be used for events caused by the terrorist attacks of
September 2001. However, INSCOM expended the funds for expenses that were not
related to the events of September 2001. For example, INSCOM expended:

            •		 $1.4 million for facility repairs and alterations,
            •		 $200,000 for repair and construction in building 1498 and 1499, at Fort
                Belvoir,
            •		 $110,000 for furniture and support services and construction, and
            •		 about $16,000 to replace two air conditioners at Fort Gillen, Georgia.

INSCOM personnel told us that INSCOM had developed a worldwide initiative to
increase U.S. force protection in response to the recommendations in the Cole
Commission 3 report. These initiatives included increased U.S. presence on the ground,
counter-intelligence in embassies, equipment, office space, and training for in-transit
forces. However, INSCOM did not have the resources to implement the initiatives until
DERF became available after September 11, 2001. The subject of the Cole Commission
report preceded the terrorist attacks of September 11, 2001, and as such, INSCOM did
not use the emergency supplemental appropriations in DERF for the intended purposes.
We discussed this finding with INSCOM senior personnel who told us that the person
who provided us with the information was a contractor employee and did not represent
INSCOM. We stand by our conclusions and findings. We summarized our meetings
with INSCOM personnel and provided the summaries to INSCOM government


3
 The Cole Commission was established after the attack on USS COLE in the port of Aden, Yemen, on
October 12, 2000.

                                                 8

employees who concurred with the summaries. OMB requirements for the use of the
funds stated that the damage to be repaired must have been directly caused by the
terrorist acts of September 11, 2001. According to the DOD 7000.14-R, if a Component
used appropriated funds for other than the intended purposes and does not have current
year funds to replace the used appropriated funds, the Component may have an
Antideficiency Act violation. Therefore, the INSCOM use of the emergency
supplemental appropriations in DERF for building repairs and acquisition of furniture is a
potential violation of the Antideficiency Act, which the ASA(FM&C) should investigate.
We also identified $3.1 million of the $146.6 million that had remained unobligated for
over 5 years during our site visit. INSCOM returned this amount to the Army in August
2008.

AMCOM LCMC
AMCOM LCMC did not implement internal control policies to ensure that the
emergency supplemental appropriations in DERF were used in compliance with OMB
guidance and with DOD financial management regulations. AMCOM LCMC expended
about $5 million to investigate a missile fire incident that occurred before September 11,
2001; about $82.1 million from its AWCF to acquire inventory; and another
$21.2 million from the AWCF for repairs.

Hellfire Missile Investigation
AMCOM LCMC expended about $5 million of the $115.7 million it received from AMC
to investigate a missile fire mishap that occurred prior to the terrorist attacks of
September 11, 2001, which was contrary to the OMB guidelines and criteria for the use
of the funds. On June 30, 2001, an errant Hellfire missile firing occurred during a live
fire training exercise at Fort Bragg, North Carolina. The Army initiated an investigation
into the errant missile firing using Army Operation and Maintenance funds. AMCOM
LCMC expended an additional $5 million of the emergency supplemental appropriations
in DERF to aid in the investigation of the errant missile firing. According to AMCOM
LCMC funding documents, the Army approved the use of the funds for the investigation.
Because the missile firing occurred before, and was not related to, the terrorist attacks of
September 11, 2001, AMCOM LCMC should not have used the emergency supplemental
appropriations in DERF for this missile misfiring investigation. OMB requirements for
the use of the funds stated that the damage to be repaired must have been directly caused
by the terrorist acts of September 11, 2001. According to the DOD 7000.14-R, if a
Component used appropriated funds for other than the intended purposes and does not
have current year funds to replace the used appropriated funds, the Component may have
an Antideficiency Act violation. The AMCOM LCMC use of emergency supplemental
appropriations in DERF to investigate the Hellfire Missile mishap that occurred before
the terrorist acts of September 11, 2001, is a potential violation of the Antideficiency Act,
which the ASA(FM&C) should investigate.

Army Working Capital Fund
AMCOM LCMC used the emergency supplemental appropriations in DERF to
supplement cash in the AWCF when it used the DERF to acquire spares and repairs and
sold the spares to the DOD Components at full cost rather than for its added cost, as

                                             9


required by OMB regulations. According to the Defense Finance and Accounting
Service 1002 report 4 for September 30, 2008, the Army expended about $198 million for
spares as part of the Army’s increased worldwide posture. AMCOM LCMC expended
$82.1 million of this amount for spares and another $21.2 million for repairs. This
amount was the emergency supplemental appropriation in DERF that AMCOM LCMC
appropriately allocated to the AWCF. According to the DOD 7000.14-R, DWCFs are
self-sustaining through sales and operated on a break-even basis. DWCF selling prices
are established to recover the cost of products and services that the fund provides. Once
established, the prices are held constant during the year of execution. Realized gains and
losses generally are reflected in offsetting adjustments to stabilized rates established in
subsequent fiscal years. By using the emergency supplemental appropriations in DERF
to acquire the spares and selling the spares to DOD Components, AMCOM LCMC
unintentionally used the appropriations to supplement the AWCF because the AMCOM
LCMC selling prices included recovery costs for the spares, which were not funded by
the AWCF. AMC and AMCOM LCMC personnel were aware of the effects of this
process on the AWCF. For example, in an internal e-mail message on October 4, 2001, a
former AMC Headquarters senior staff member wrote:

                   Let me clarify the intent regarding the $200M of DERF funding
                   released earlier this week. These funds are to replenish the AWCF
                   inventory for items critically short as defined by LG. Although direct
                   citing DERF funds, the items will be brought into AWCF and sold at
                   AMOF [(also called AMDF) Army Master Data File] price. They will
                   not be free issued. Please clarify this with your staff. This procedure is
                   similar to us receiving TOA [Total Operating Authority] for spares.
                   Would prefer we not discuss externally the benefits to AWCF cash of
                   this process.

According to DOD 7000.14-R, the availability of an appropriation cannot be expanded or
otherwise changed by transfer to the DWCF. Therefore, the statutory limitations and
restrictions imposed on the use of emergency supplemental appropriations to reimburse
agencies for their added costs did not change and remained the same when AMCOM
LCMC acquired spares and repairs using the emergency supplemental appropriations in
the AWCF. AMCOM LCMC should have treated the amount expended for the spares
and repairs as nonexpenditure transfer because the spares and the repairs that AMCOM
LCMC acquired did not involve an outlay of any AWCF. A nonexpenditure transfer of
funds would have decreased the AWCF by the same amount of the emergency
supplemental appropriations in DERF. AMCOM LCMC should have sold the spares to
the DOD Components for its added cost. According to the OMB guidance, AMCOM
LCMC could use the emergency supplemental appropriations in DERF to pay for its
added costs for providing the spares and repairs to the DOD Components. Because
AMCOM LCMC did not treat the amount transferred to the AWCF as nonexpenditure
and billed the DOD Components for the full cost rather than for its added cost, the
budgetary resources in the AWCF increased (gained) by at least $103.3 million.



4
    Appropriation Status Report

                                                      10

ASA(FM&C) needs to ensure that the AWCF provides rebates to its customers by
reducing its future selling prices.

Summary
We found that the Army sites we visited generally used the emergency supplemental
appropriations in DERF for the appropriations’ intended purposes. However, INSCOM
and AMCOM LCMC did not always use their emergency supplemental appropriations
for the appropriations’ intended purposes. INSCOM and AMCOM LCMC did not
always implement the DOD financial management regulations to ensure that appropriated
funds were used for their intended purposes. As a result, a potential Antideficiency Act
violation may have occurred at INSCOM and AMCOM LCMC because of the use of
DERF for other than their intended purposes. In addition, AMCOM LCMC may have
used appropriated funds to supplement the AWCF. The ASA(FM&C) should determine
whether the use of the emergency supplemental appropriations in DERF for other than
the appropriations’ intended purposes is a potential violation of the Antidifiency Act.
The ASA(FM&C) should also ensure that the AWCF gives rebates in the form of lower
selling prices to its customers to offset the additional funding that the emergency
supplemental appropriations provided to the AWCF.

Recommendations, Management Comments, and Our
Response
We recommend that the Assistant Secretary of the Army, (Financial Management and
Comptroller):

       1. Ensure that the Department of the Army Components implement
procedures to comply with the legal restrictions and limitations on obligation and
disbursement documents.

Management Comments
The Director, Management and Control, Office ASA(FM&C) stated that the Army
believes that appropriate procedures are in place for the Army Components to ensure
compliance with legal restrictions and limitations on obligations and disbursement
documents. Additionally, the Director stated that the procedures are updated regularly
and funding and obligations documents originating from the HQDA [Headquarters,
Department of the Army] and from OSD [Office of the Secretary of Defense] contain
restrictions on the use of appropriated funds.

Our Response
The Director, Management and Control, Office the ASA(FM&C) comments are not
responsive. The Director neither concurred nor nonconcurred with the recommendation.
The report did not state that the Army did not have policies and procedures in place, and
the report did not recommend that the Army establish new policies and procedures. The
report stated that officials at the Army Components we reviewed did not always comply
with restrictions and limitations on the funding documents, specifically the Fund


                                           11

Authorization Documents. The report recommended that policies and procedures need to
be implemented to make sure that DOD appropriated funds are used for their intended
purposes and in compliance with OMB guidance. We request that the Director,
Management and Control, Office ASA(FM&C) provide comments to the final report by
August 11, 2010.

        2. Perform an independent assessment to determine whether a formal
investigation should occur for potential Antideficiency Act violations of INSCOM
use of emergency supplemental appropriations in DERF for building repairs,
acquisition of furniture, alterations, and construction; and of the AMCOM LCMC
use of the emergency supplemental appropriations in DERF to investigate the
Hellfire Missile mishap.

Management Comments
The Deputy Assistant Secretary of the Army (Financial Operations), Office of the
ASA(FM&C) stated that a directive was sent to INSCOM and AMC on March 30, 2010,
requiring them to initiate a preliminary review of the potential Antideficiency Act
violations identified in the report.

Our Response
The Deputy Assistant Secretary of the Army (Financial Operations), Office of the
ASA(FM&C) neither concurred nor nonconcurred with the recommendation. However,
the comments are responsive, and no additional comments are required. We suggest that
if the review confirms an Antideficiency Act violation occurred, the ASA(FM&C) should
ensure that INSCOM and AMC report the Antideficiency Act violations in accordance
with the DOD FMR.

       3. Establish a verifiable rate reduction in the AWCF selling prices to provide
rebates to DOD Components by the amount equal to the DERF funding used to
supplement the AWCF.

Management Comments
The Acting Director of Business Resources, Office of the ASA(FM&C) concurred with
the recommendation with comments. The Acting Director stated that unless authorized
by the OUSD [Office of Under Secretary of Defense] Comptroller, the Army establishes
rates and prices to recover actual cost or projected losses or to return actual or projected
gains as stated in the DOD FMR, [DOD Financial Management Regulation] Volume 2b,
chapter 9, paragraph 090103F. Prices are established through the budget process to
recover full costs including administrative costs and remain fixed during the year of
execution. The Acting Director also stated that AMCOM LCMC did not use DERF
funding to supplement the AWCF because the funding was used to acquire spares to
increase its inventory to support increased customer demands following the attacks of
September 11, 2001, and, therefore, selling the inventory at less than the full price
prevents replenishment during a period of increased customer demands.



                                             12

Our Response
The report stated that AMCOM LCMC appropriately used DERF to acquire inventory for
the AWCF. However, by not reducing the selling prices by the additional DERF funding
to the AWCF, AMCOM LCMC was supplementing the AWCF. Based on the Acting
Director’s comments, we anticipate that when the surge is over, the USD(C)/CFO and the
Army will establish selling prices in the AWCF that will return actual or projected gains
(at least by amount equal to DERF funding used to acquire the inventory) to the AWCF
customers. The Acting Director’s comments are, therefore, responsive, and no additional
comments are required.




                                           13


Appendix A. Scope and Methodology
We conducted this financial-related audit from February 2008 through March 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objectives. This is the second of two reports we are
issuing from the audit. We issued DOD IG Report No. D-2009-098, “Status of the
Defense Emergency Response Fund in Support of the Global War on Terror,” on July 30,
2009.

We performed the audit by requesting data and conducting interviews with officials and
operating personnel at the MACOMs we visited. We judgmentally selected the MACOM
and SUBMACOMs we visited based on the funding they received and their proximity to
each other to ensure maximum coverage per site visit. We reviewed funding documents
to determine the funding authority provided to the Army Commands. We compared the
data to actual funding authorization documents to determine the reliability and accuracy
of the data. Additionally, we reviewed amounts reported as obligations on the
September 30, 2008, Defense Finance and Accounting Services 1002 report to determine
the amounts expended and the status of the funds.

Record Retention Period
At three of the seven Major Commands we visited, we could not determine whether the
emergency supplemental appropriations were used for their intended purposes. The
Commands, in accordance with current regulations, did not maintain documentation past
the required retention period mandated by the DOD financial management regulation to
enable us to make the determination. The requirement for DOD components to maintain
all financial records (except for those supporting settlement vouchers for official travel)
for a minimum period of 6 years and 3 months has been deleted from the DOD
Regulation 7000.14-R. The April 2009 edition of the regulation refers to record retention
policies in DOD Directive 5015.2, November 21, 2003, “DOD Records Management
Program,” and to guidance promulgated by the U.S. National Archives and Records
Administration. The National Archives and Records Administration require allotment
records showing status of obligations and allotments to be destroyed 6 years and
3 months after the close of the fiscal year involved.

Army Materiel Command
AMC received about $434.2 million of the emergency supplemental appropriations in
DERF from the Army and suballocated the funds to its SUBMACOMs. We visited the
following AMC SUBMACOMs.

    CECOM Life Cycle Management Command. AMC allocated $84.3 million to
CECOM LCMC. We reviewed the funding documents to determine the amounts that

                                            14


CECOM LCMC received from AMC and how the funds were suballocated among the
CECOM LCMC components. We interviewed operating personnel to obtain an
understanding of CECOM LCMC accounting systems and internal control policies. We
obtained transactions listing from CECOM LCMC and judgmentally selected for review
25 high dollar value transactions valued at about $21.6 million from a universe of
49 transactions valued at about $22.6 million. CECOM LCMC provided part of the
$84.3 million to its Subordinate Commands located outside CECOM LCMC
headquarters, which we did not visit. We verified the selected transaction listings to
supporting documentation including Military Interdepartmental Purchase Request
(MIPR), travel vouchers, billing records, contracts, purchase orders, invoices, and receipt
documents to determine if the reported amounts were accurate and were expended for
DOD needs arising from the terrorist attacks of September 11, 2001. For example, we
reviewed the purpose of the obligation documents to determine if the acquired products
or services were related to the CECOM LCMC needs arising from the terrorist acts of
September 11, 2001.

        Joint Munitions Command. AMC allocated about $141.8 million to JMC. JMC
obligated about $110.3 million. We obtained the JMC transactions listing and
judgmentally selected 73 high dollar value transactions valued at about $105 million from
a universe of 239 transactions valued at $110.3 million for review. We reviewed the
funding documents to determine JMC funding authority. We interviewed operating
personnel to obtain an understanding of their accounting systems and internal control
policies. We verified the selected transactions to supporting documentation including
MIPRs, travel vouchers, billing records, contracts, purchase orders, invoices, and receipt
documents to determine if the reported amounts were accurate and obligations were
related to DOD needs arising from the terrorist attacks of September 11, 2001.

        TACOM Life Cycle Management Command. TACOM LCMC received about
$55 million from AMC. TACOM LCMC then suballocated the funding to its
Components at Warren, Michigan, and at Rock Island, Illinois. At both Components, we
reviewed their funding documents to determine their funding authority. We interviewed
operating personnel to obtain an understanding of their accounting systems and internal
control policies. We requested and received transactions listing from the two
components and judgmentally selected 61 high dollar value transactions valued at about
$52 million from a universe of 335 transactions valued at $55 million. We verified the
selected transactions to supporting documentation including invoices, MIPRs, purchase
orders, billing records and travel vouchers to determine if the amounts reported were
accurate and were related to DOD needs arising from the terrorist attacks of
September 11, 2001.


       AMCOM Life Cycle Management Command. AMC allocated over
$115.7 million to AMCOM LCMC. At AMCOM LCMC, we reviewed funding
documents to determine the amounts that AMCOM LCMC received from AMC and how
the funds were suballocated among the AMCOM LCMC Components. We interviewed
operating personnel to obtain an understanding of their accounting systems and internal


                                            15


control policies. We judgmentally selected 180 transactions valued at $111.1 million for
review from a universe of 783 transactions valued at $115.1 million. The sampled
transaction include 14 transactions valued $4.9 million from the Missile Research
Development and Engineering Center, 152 transactions valued at $105.3 million from
Integrated Material Management Center, and 14 transaction valued at $0.9 million from
the Garrison office. We verified the selected transactions to supporting documentation
including billing records, contracts, purchase orders, invoices, and receipt documents to
determine if the reported amounts were accurate and were for DOD needs arising from
the terrorist attacks of September 11, 2001.

Army Intelligence and Security Command
INSCOM received about $146.6 million emergency supplemental appropriations from
the Army. We reviewed funding documents to confirm this amount. We interviewed
operating personnel to obtain an understanding of the INSCOM accounting systems and
internal control policies. INSCOM provided us with a listing of 67 transactions valued at
$143.5 million and documentation supporting the transactions on the listing. We
determined that 10 transactions on the listing either were allotments (not obligations) or
were obligations that did not involve the use of emergency supplemental appropriations.
In addition, we were unable to match the listing to the supporting documentation because
each transaction on the listing represented multiple obligation documents. We therefore
randomly selected obligation documents from the supporting documentation to ascertain
the purposes of the obligations. We communicated the results of our review to INSCOM
and provided them with an opportunity to respond to our findings. We subsequently
visited INSCOM to discuss their response to our findings.

Army Criminal Investigation Command
CIDC received about $19.8 million emergency supplemental appropriations from the
Army. We reviewed funding documents to confirm the amount that CIDC received from
the Army. We interviewed operating personnel to obtain an understanding of their
accounting systems and internal control policies. CIDC Headquarters provided us with a
listing of 4,374 transactions valued at $16.2 million. We judgmentally selected 133 high
value transactions valued at about $15.9 million. We verified the selected transactions to
supporting documentation including invoices, MIPRs, purchase orders, billing records,
contracts, and travel vouchers to determine if the reported amounts were accurate and
related to DOD needs arising from the terrorist attacks of September 11, 2001.

Army Training and Doctrine Command
TRADOC received about $55.2 million emergency supplemental appropriations from the
Army. TRADOC suballocated the funds to its SUBMACOMs. We requested and
received a listing of 100 transactions valued at about $1.7 million from TRADOC
Transportation Command at Ft. Eustis, Virginia. We judgmentally selected 27 high
dollar value transactions valued at about $1.5 million from the listing. We verified the
selected transactions against supporting documents such as invoices, MIPRs, billing
records and purchase orders to determine the accuracy of the listing we received and to
determine if the amounts expended were for DOD needs arising from the events of


                                            16


September 11, 2001. We interviewed operating personnel to obtain an understanding of
their accounting systems and internal control policies.

Program Executive Office, Intelligence, and Electronic Warfare
The Army allocated $100.9 million of the emergency supplemental appropriations to the
Program Executive Office, Intelligence, and Electronic Warfare (PEO IEW.) We
reviewed the funding documents to confirm the amount that PEO IEW received from the
Army. We interviewed operating personnel to obtain an understanding of PEO IEW
accounting systems and internal control policies. The PEO IEW provided us with
transactions listing however; we were unable to verify the listing to supporting
documentation. The PEO IEW did not maintain supporting documentation past the
retention period mandated by DOD Regulation 7000.14R.

Operating Agencies OA01 and OA22
Operating Agencies OA01 and OA22 received about $470.5 million of the emergency
supplemental appropriations from the Army. Operating Agencies OA01 and OA22
personnel could not provide us with transaction listings by document number on how the
$470.5 million was expended. The personnel told us that they did not maintain the
records past the DOD documentation retention period.

Other Sites
 In addition to the sites visited, we contacted and received transaction listings from
U.S. Army Europe Command. An official told us in an e-mail that their emergency
supplemental appropriations in DERF were used for installation security. We did not
verify this information. We received transaction listings from the U.S. Army Medical
Command and four additional TRADOC SUBMACOMs but did not verify the
transactions to source documents. We also contacted other Army MACOMs for site
visits. Most of these Commands told us that they did not have the documentation to
support our audit objectives because of the passage of time and the people with the
corporate knowledge of the program were no longer available to provide us with the
information to meet the audit objectives. We also contacted the National Guard Bureau
with similar results. We therefore limited our audit fieldwork to the sites already visited.

Use of Computer-Processed Data
We relied on computer-processed data provided by Defense Finance and Accounting
Service and the Commands we visited. We verified the data to actual source documents
and determined the computer-processed data to be sufficiently reliable. However, we did
not evaluate the general and application controls of the computers. Although we did not
evaluate the general and application controls of the computers, we did not find significant
errors in funding and obligation documents that would cause us to change the conclusions
of this report.




                                             17


Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the
Department of Defense Office of Inspector General have issued three reports discussing
DERF for the Global War on Terror. Unrestricted GAO reports can be accessed over the
Internet at http://www.gao.gov. Unrestricted DOD IG reports can be accessed at
http://wwwdodig.mil/audit/reports.

GAO
GAO File No. B-303145, “Department of Defense – Transfer and Use of Defense
Emergency Response Fund,” December 7, 2005

DOD IG
DOD IG Report No. D-2009-098, “Status of the Defense Emergency Response Fund in
Support of the Global War on Terror,” July 30, 2009

DOD IG Report No. D-2008-105, “Defense Emergency Response Fund,” June 20, 2008




                                          18


Appendix B. Emergency Supplemental
Appropriations Affecting the Defense
Emergency Response Fund
Public Law 107-38, “2001 Emergency Supplemental Appropriations Act for Recovery
From and Response to Terrorist Attacks on the United States,” September 18, 2001,
provides funds for emergency expenses resulting from the terrorist attacks that occurred
on September 11, 2001, for assistance to the victims of the attacks, and to deal with other
consequences of the attacks. The funds were to be used to:

   •		 provide Federal, state, and local preparedness for mitigating and responding to the
       attacks;
   •		 provide support to counter, investigate, or prosecute domestic or international
       terrorism;
   •		 provide increased transportation security;
   •		 repair public facilities and transportation systems damaged by the attacks; and
   •		 support national security.

The Law also states that the funds may be transferred to any authorized Federal
Government activity to meet the purposes of the Act.

Public Law 107-117, “Department of Defense Emergency Supplemental Appropriations
for Recovery From and Response to Terrorist Attacks on the United States Act, 2002,”
January 10, 2002, provides funds for DOD emergency expenses in response to the
September 11, 2001 attacks for:

   •		   increased situational awareness;
   •     increased worldwide posture;


   •     offensive counterterrorism;


   •		   initial crisis response;
   •		   the Pentagon Reservation Maintenance Revolving Fund; and
   •		   relocation costs and other purposes.

The Law also states that the amount is available for the purposes set forth in Public
Law 107-38 and that the funds may be used to reimburse other DOD appropriations for
costs incurred for such purposes on or after September 11, 2001.

Public Law 107-206, “2002 Supplemental Appropriations Act for Further Recovery From
and Response to Terrorist Attacks on the United States,” August 2, 2002, provides
funding for military personnel; maintenance; procurement; research, development, test,
and evaluation; and for overseas humanitarian, disaster, and civic aid. The funds could
be transferred to other DOD accounts for classified activities.


                                            19

Public Law 107-248, “DOD Appropriation Act, 2003,” October 23, 2002, requires an
amount not to exceed $305 million be transferred from the Pentagon Reservation
Maintenance Revolving Fund to DERF for reconstruction, recovery, force protection, or
security enhancements for the Pentagon Reservation.

Public Law 107-296, “Homeland Security Act of 2002,” November 25, 2002, requires
DOD to transfer the functions, personnel, assets, and liabilities related to National
Communications System to the Department of Homeland Security. Because of this
Public Law, DOD transferred about $74.5 million from DERF to the Department of
Homeland Security.

Public Law 108-7, “Consolidated Appropriations Resolution, 2003,” February 20, 2003,
requires the transfer of $40 million from DERF to the Defense-Wide Procurement
account.

Public Law 108-11, “Emergency Wartime Supplemental Appropriations Act, 2003,”
requires all balances in DERF as of October 31, 2003, be transferred to and merged with
IFF.

Public Law 108-106, “Emergency Supplemental Appropriations Act for Defense and for
the Reconstruction of Iraq and Afghanistan, 2004,” amended Public Law 108-11 by
requiring all unobligated balances in DERF to be transferred to IFF. In addition, the Law
states that, effective November 1, 2003, adjustments to obligations that would have been
chargeable to DERF must be charged to any current DOD appropriations account
available for the same purpose.




                                           20


Appendix C. Office of Management and
Budget Guidelines for Funding Requests for
Areas Related to the September 11, 2001
Terrorist Attacks




Attachment


                    21

                      GUIDELINES/CRITERIA FOR


              EMERGENCY FUNDING REQUESTS RELATED TO


             THE TERRORIST ATTACKS OF SEPTEMBER 11, 2001




Response and Recovery

   1.	 The damage to be repaired must have been directly caused by the terrorist acts.

   2.	 The absence of funding, and consequently a delay in damage repair, protection or
       other activities, would result in significant economic loss/hardship, attack risk, or
       human endangerment/suffering, including the cost of enhanced security and
       relocation of employees to secure sites.

   3.		 Any action ordered by the President to respond to the national security
        consequences of the events of September 11, 2001.

   4.	 The requirement is known, i.e., not a speculative need.

   5.	 The requirement is urgent, i.e., could not reasonably be handled at a later time.

   6.	 The activity to be performed is an appropriate Federal role and reflects an
       appropriate sharing of responsibility among State, local, private, and Federal
       entities.

   7.	 The level of funding is limited to the amount necessary to restore the
       entity/facility to current standards and requirements (e.g., damage to a 1950s
       building would be repaired using current building codes and standards and
       guidelines for counterterrorism defense).

   8.	 The requirement is not competitive with or duplicative of activities of other
       agencies with statutorily mandated disaster assistance programs such as the Small
       Business Administration and the Federal Emergency Management Agency.

   9.	 The requirement cannot reasonably be met through the use of existing agency
       funds, e.g., through reprogramming actions or the use of other emergency funds.




                                            22


Preparedness and Mitigation

   10. Funds should address specific deficiencies, encountered or identified to prevent
       events such as those that occurred on September 11, 2001, and may include
       expenditures for: law enforcement and investigative activities; general preparation
       and response (planning, training, equipment, and personnel); physical protection
       of government facilities and employees; physical protection of the national
       populace and infrastructure; and governmental awareness of potential threats.

   11. Funds can be used to enhance U.S. abilities to interdict terrorist threats.

   12. The activity to be performed is an appropriate Federal role and reflects an
       appropriate sharing of responsibility among State, local, private, and Federal
       entities.

   13. The requirement is urgent, i.e., could not reasonably be handled at a later time.

   14. Activities are not competitive with or duplicative of activities of other agencies
       with statutorily mandated preparation programs such as DOD and the Federal
       Emergency Management Agency.

   15. The requirement cannot reasonably be met with existing agency funds, e.g.,
       through reprogramming actions or the use of other emergency funds.




                                             23


Appendix D. Department of the Army
Allocation of the DERF
                           Major Command                                 Amount
                                                                        (millions)
Army Forces Command                                                         $497.4
Army Intelligence and Security Command                                        146.6
Army Materiel Command                                                         434.2
Army Medical Command                                                           21.0
Army Test and Evaluation Command                                                3.3
Army Training and Doctrine Command                                             55.2
Army Reserve (Funds issued directly by OUSD(C), limit 101)                      7.6
Criminal Investigation Command                                                 19.8
Eighth United States Army                                                       9.0
Joint Forces Command                                                           17.6
Military District of Washington                                                 3.9
National Guard Bureau (funds issued directly by the Army)                     137.2
National Guard Bureau (funds issued directly by the OUSD(C) limit102)         208.4
Office of the Chief, Army Reserve                                               1.3
Operating Agency 01                                                           327.2
Operating Agency 22                                                           143.3
Program Executive Office Aviation                                              26.0
Program Executive Office, Command Control and Communications                   40.0
Program Executive Office, Intelligence and Electronic Warfare                 100.9
Program Executive Office Tactical Missiles                                     27.2
U.S. Army Southern Command                                                      6.7
United States Army Corps of Engineers                                          26.1
United States Army European Command                                             8.7
United States Army Europe/Seventh Army                                         75.3
United States Army Pacific Command                                             20.4
United States Army Reserve Command                                             13.9
United States Army Space and Missile and Defense Command                       18.1
United States Army South                                                        3.9
United States Military Academy                                                  4.7
United States Special Operations Command                                        4.6
Undistributed Funds                                                            42.4
  Total                                                                   $2,451.9


                                           24


Assistant Secretary of the Army (Financial Management
and Comptroller) Comments




  B\                              DEPARTMENT OF THE ARMY
                                OFFICE OF THE ASSISTANT SECRETARY
                              FINANCIAL MANAGEMENT ANO COMPTROlLER




  ~
                                         109 ARMY PENTAGON
                                    WASHINGTON. DC 2031{)-{)109


             RV'LTTO
             AnEHllOHOF
                                                                                   22 April 2009


      MEMORANDUM THRU Auditor General, U.S. Army Audit Agency, 3tOl Park Center
      Drive, Alexandria, VA 22303-1596

      FOR Inspector General , Department of Defense, Defense Business Operations, 400
      Army Navy Drive, Arlington , VA 22202-4704

      SUBJECT: Draft report, Management of Emergency Supplemental Appropriations at
      Selected Department of the Army Commands in Response to Terrorist Attacks (Project
      Number: D2008-DOOOFE-Ol 06.001)


      1. We appreciate the opportunity to respond to subject report and are providing
      comments 10 Recommendation Number 1.                .

      2. The Army believes that appropriale procedures are in place for Army Components to
                                Click to add JPEG file
      ensure compliance with the legal restrictions and limitations on obligation and
      disbursement documents. Public Laws, Statutes, OMB Circulars, 000 FMR, DFAS
      Regulation 37-1 - Finance and Accounting Policy Implementation and DFAS-IN Manual
      37-100-10 contain the policy and procedures that Army Components must follow for
      funds control and execution. These documents are updated regula~y and generally
      have become more restrictive. Additionally, Funding Allocation and Obligation Authority
      documents Originating from HQDA and aso also contain footnotes and remarks that
      cite Public Laws and policy further restricting the use of funds.




                                                   MB'Ia~rb!<.a"'ra~~oV:ne"'s"'slla<­
                                            Director, Management and Control
                               DEPARTMENT OF THE ARMY
                         OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY
                            F1NANOAL MANAGEMENT AND COMPTROLLER
                                      109 ARMY PENTAGON
                                   WASHINGTON DC 2031().Ol09
                                                                         APR   2 2010


MEMORANDUM THRU Auditor Genera l, Department of the Army, 3101 Park Center
Drive, Alexandria, Virginia 22302-1596

FOR Inspector General, Department of Defense, Defense Business Operations, 400 Army
Navy Drive, Arlington, Virginia 22202-4704

SUBJECT: Draft report , Management of Emergency Supplemental Appropriations at
Selected Department of the Anny Commands in Response to Terrorist Attacks (Project
Number: D2008-DOOOFE-01 06.001 )


1. We appreciate the opportunity to comment on subject report and are providing our
comments to Recommendation 2.

2. Pursuant to Volume 14, Chapter 3 of the Department of Defense Financial
Management Regulation (February 2008), the Anny is required to initiate a preliminary
                            Click to add JPEG file
review within 30 days of the receipt of draft audit findings alleging that a potentia( ADA may
have occurred. A directive was sent to the U.S. Army Intelligence and Security Command
and the U.S. Army Materiel Command on March 30, 2010 requiring them to initiate a
preliminary review.




                                                        26
                              DEPARTMENT OF THE ARMY
                        OFFtCE OF THE ASS$TANT SECRETARY OF THE ARMY
                           FINANCIAL MANAGEMENT AHD COMPTROLLER
                                     1011 ARMY PENTAGON
                                  WASHINGTON DC 20310-0101



                                                                            21 April 2010


MEMORANDUM THRU Auditor General, U.S. Army Audit Agency, 3101 Park Center
Drive, Alexandria, VA 22302-1596

FOR Inspector General, Department of Defense, Defense Business Operations, 400 Army
Navy Drive, Arlington, VA 22202-4704

SUBJECT: Draft report, Management of Emergency Supplemental Appropriations at
Selected Department of the Army Commands in Response to Terrorist Attacks (Project
Number: D2008-DOOOFE-01 06.001)


1. Army's response to recommendation 3 of the subject report is attached at enclosure.



                           Click to add JPEG file
                                           51f zAjLfJ'
Encl
as                                 t       Cecelia M. Trimble
                                     cting Director of Business Resources




                                                          27
Draft report : DOD-IG Report D200B-DOOOFE-Ol 06. 001



Recommendation 3.

Establish a verifiable rate reduction in the AWCF selling prices to provide rebates to
DOD Components by the amount equal to the DERF funding used to supplement the
AWCF.

Response. Army concurs wit h comment.

Unless otherwise authorized by OUSD Comptroller, Army establishes rates and prices
during the budget formulation process to recover actual or projected losses or to return
actual or projected gains. (DOD FMR, Volume 2b, Chapter 9, Paragraph 090103 F)

The draft reports language implies that AM COM LCMC should have billed the DOD
Components for only the added cost of acquiring the spares rather than the full amount.
The report also states that AMCOM LCMC may have used appropriated fu nds to
supplement the AWCF. The DOD FMR, Volume 2b, Chapter 9, Paragraph 090103 F,
requires activ ity groups within the Fund to set prices based on full cost reco very ,
                           Click to add JPEG file
including all general and administrative support provided by others. Prices are
established through the budget process and (except for unusual circumstances) remain
fixed during the year of execution.

AM COM LCMC did not use the DERF funding to supplement the AWCF . The
appropriated funds were properly used to acquire spares to augment (increase)
inventory to support increased customer demands following the attacks of September
11 . 2001 . The fact that customer demands have remained at high levels demonstrates
the need to sell inventory at full price. collecting sufficient cash to pay for continued
spares replenishment. Selling the inventory at less than full price prevents
replenishment during a period of increased customer demands, resulting in decreases
in customer demand satisfaction and weapons system operational readiness­
conditions specifically intended to be remed ied by the DERF funding .




                                                                                      Encl




                                                       28
